David Zimmer
617.570.1192
dzimmer@goodwinlaw.com

Goodwin Procter LLP
100 Northern Ave.
Boston, MA 02210
goodwinlaw.com
617.570.1000

July 13, 2020

BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Niz-Chavez v. Barr, No. 19-863

Dear Mr. Harris:
I am counsel of record for petitioner in the above-captioned case. After consulting with counsel for
respondent, I respectfully request pursuant to Rules 25.5 and 30.4 that the Court extend the deadlines for
the parties’ principal briefs and the Joint Appendix as follows:
Petitioner’s brief and Joint Appendix: Thursday, August 6, 2020
Respondent’s brief: Monday, September 21, 2020
Counsel for respondent agrees to this proposed schedule.
Thank you very much for your assistance.

Respectfully Yours,

David Zimmer

cc (by e-mail):

Jeffrey B. Wall, counsel of record for respondent

